Audit Report




OIG-09-005
Audit of the Federal Financing Bank’s Fiscal Years 2008 and
2007 Financial Statements


November 12, 2008




Office of
Inspector General
Department of the Treasury
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220


                                             November 12, 2008
     OFFICE OF
INSPECTOR GENERAL




            MEMORANDUM FOR SECRETARY PAULSON

            FROM:                  Eric M. Thorson /s/
                                   Inspector General

            SUBJECT:               Audit of the Federal Financing Bank’s Fiscal Years 2008 and
                                   2007 Financial Statements


            I am pleased to transmit the attached audited Federal Financing Bank’s (FFB)
            financial statements for fiscal years 2008 and 2007, as required by the
            Government Corporation Control Act.

            DISCUSSION:

            Under a contract monitored by the Office of Inspector General, KPMG LLP, an
            independent certified public accounting firm, performed an audit of the financial
            statements of FFB as of September 30, 2008 and 2007 and for the years then
            ended. The contract required that the audit be performed in accordance with
            generally accepted government auditing standards; applicable provisions of Office
            of Management and Budget Bulletin No. 07-04, Audit Requirements for Federal
            Financial Statements; and the GAO/PCIE Financial Audit Manual.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                •   Independent Auditors’ Report on Financial Statements;
                •   Independent Auditors’ Report on Internal Control Over Financial Reporting;
                    and
                •   Independent Auditors’ Report on Compliance and Other Matters.

            In its audit, KPMG LLP found:

                •   the financial statements were fairly presented, in all material respects, in
                    conformity with U.S. generally accepted accounting principles;
                •   no matters involving internal control and its operations that are considered
                    material weaknesses; and
                •   no instances of reportable noncompliance with laws and regulations tested.
Page 2

KPMG LLP also issued a management letter dated November 10, 2008, discussing
other matters involving internal control over financial reporting and its operation
that were identified during the audit but were not required to be included in the
auditors’ reports.

In connection with the contract, we reviewed KPMG LLP’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit in accordance with generally accepted government auditing
standards, was not intended to enable us to express, and we do not express, an
opinion on the financial statements or conclusions about the effectiveness of
internal control or compliance with laws and regulations. KPMG LLP is responsible
for the attached auditors’ reports dated November 10, 2008, and the conclusions
expressed in the reports. However, our review disclosed no instances where
KPMG LLP did not comply, in all material respects, with generally accepted
government auditing standards.

Should you have any questions, please contact me at (202) 622-1090, or a
member of your staff may contact Marla A. Freedman, Assistant Inspector General
for Audit, at (202) 927-5400.

Attachment

cc:   Kenneth Carfine
      Vice President, FFB

      Meredith Broome
      Vice President and Treasurer, FFB
     FEDERAL FINANCING BANK
           Financial Statements

       September 30, 2008 and 2007

(With Independent Auditors’ Report Thereon)
                                      FEDERAL FINANCING BANK


                                             Table of Contents



                                                                            Page

Management’s Discussion and Analysis                                          1

Independent Auditors’ Report on Financial Statements                          5

Financial Statements                                                          7

Notes to Financial Statements                                                10

Other Supplementary Information – Schedule 1                                 19

Independent Auditors’ Report on Internal Control over Financial Reporting    20

Independent Auditors’ Report on Compliance and Other Matters                 22
                                       FEDERAL FINANCING BANK
                                    Management’s Discussion and Analysis
                                         September 30, 2008 and 2007



Introduction

The Federal Financing Bank (the Bank) is a government corporation under the general supervision and direction
of the Secretary of the Treasury. It was created by the Congress in 1973, at the request of the U.S. Department of
the Treasury (Treasury). The Bank actively borrows from Treasury and lends to Federal agencies and private
borrowers that have Federal guarantees. The Bank also has a debt obligation to the Civil Service Retirement and
Disability Fund.

Mission

The mission of the Bank is to reduce the costs of Federal and federally assisted borrowings, to coordinate such
borrowings with the Government’s overall fiscal policy, and to ensure that such borrowings are done in ways that
least disrupt private markets. To accomplish this mission, the Bank exercises its broad statutory authority to
purchase obligations issued, sold, or guaranteed by Federal agencies.

Objectives

The Bank was formed to be the vehicle through which Federal agencies finance programs involving the sale or
placement of credit market instruments, including agency securities, guaranteed obligations, participation
agreements, and the sale of assets. This principle is applied in a manner consistent with the Federal Financing
Bank Act of 1973 (12 U.S.C. 2281 et seq.) and its legislative history. Guaranteed programs entailing large
numbers of relatively small loans in which local origination and servicing are an integral part of the program are
excluded.

The Bank makes funds available to Federal agencies and to guaranteed borrowers in accordance with program
requirements. The Bank is capable of providing a lending rate for any amount required and for nearly any
maturity. The rates charged by the Bank for terms such as prepayment provisions, forward interest rate
commitments, and pass-through of service charges are applied consistently for all borrowers.

The lending policy of the Bank is flexible enough to preclude the need for any accumulation of pools of funds by
agencies. This does not exclude the maintenance of liquidity reserves for those agencies that have such a need. In
no case will funds provided by the Bank be invested in private credit instruments or be used to speculate in the
market for public securities.

Organizational Structure

The Bank is subject to the general supervision and direction of the Secretary of the Treasury. The Board of
Directors is comprised of the incumbents of the following Treasury offices: the Secretary of the Treasury, who as
provided by law, is the Chairman; the Deputy Secretary; the Under Secretary for Domestic Finance; the General
Counsel; and the Fiscal Assistant Secretary.

The officers are incumbents of the following Treasury offices (corresponding Bank positions are in parentheses):
the Under Secretary for Domestic Finance (President); the General Counsel (General Counsel); the Assistant
Secretary for Financial Markets (Vice President); the Fiscal Assistant Secretary (Vice President); the Deputy
Assistant Secretary for Government Financial Policy (Vice President and Treasurer); and the Director, Office of
Federal Lending (Secretary and Chief Financial Officer). A delegation by the Bank President authorizes any
Bank Vice President, in consultation with any other Bank officer, to exercise the powers of the Presidency.

                                                        1
                                       FEDERAL FINANCING BANK
                                     Management’s Discussion and Analysis
                                          September 30, 2008 and 2007



The staff of the Bank is organized into three units: loan administration, accounting and computer support. The
loan administration and accounting managers and the Chief Information Officer (CIO) report to the Chief
Financial Officer (CFO). The loan administration manager is responsible for the loan administration unit, which
includes the duties and responsibilities associated with credit analysis, loan origination, loan structuring, and
customer service. The accounting manager heads a team of professionals responsible for loan disbursements,
repayments, accounting and financial reporting. The CIO is responsible for a team of information systems
professionals and contractors that conduct in-house software development and maintain the Bank’s Oracle-based
mission critical enterprise application. That application provides systems support for the loan administration and
accounting functions.

Ongoing Issues

Title XVII of the Energy Policy Act of 2005 created a loan guarantee program to be administered by the
Department of Energy for innovative technologies. This program will finance guaranteed loans through the Bank.
The initial loans are expected to be guaranteed during the first quarter of fiscal year (FY) 2009. Congress has
authorized $42 billion of loan guarantees for the Title XVII loan guarantee program.

Title IV, the Home Ownership Preservation Entity (HOPE) Fund for Homeowners Act of 2008, of the Housing
and Recovery Act of 2008, authorizes the Secretary of the Treasury to issue HOPE bonds without any limitations
as to the purchaser of the issuance. Due to the cost of issuing special purpose bonds to the public, the Secretary
of the Treasury has decided to issue the HOPE bonds to the Bank. The total outstanding HOPE bonds may not
exceed $300 billion. The purchase of HOPE bonds is consistent with the core mission of the Bank.

Under a provision in the 1987 enabling legislation for the U.S. Department of Agriculture’s Rural Utilities
Services (RUS) Cushion of Credit Payments Program (cushion of credit), the Bank receives considerably less
interest each year on certain RUS loans that it holds than it is contractually entitled to receive. This provision,
however, did not reduce the amount of interest the Bank owed on its corresponding loans from Treasury. The
shortfall in interest received by the Bank has resulted in substantial deficits in the past. The cumulative losses
from interest credits taken by the RUS, beyond losses that were extinguished by appropriation in a previous year,
totaled $1,199,275 thousand through September 30, 2008. The interest shortfall is recorded on the statement of
operations and changes in net position as legislatively-mandated interest credit (contra-revenue to interest on
loans). In September 2007, the Bank prepaid all corresponding loans owed to Treasury that financed the RUS
loans affected by the cushion of credit.

Section 774 of the Agriculture, Rural Development, Food and Drug Administration, and Related Agencies
Appropriations Act of 2006, also known as the Final Maturity Extension Authority, amended the Rural
Electrification Act of 1936 by adding a new section permanently authorizing maturity extensions for
RUS-guaranteed Bank loans. The Final Maturity Extension Authority allows borrowers of loans made by the
Bank and guaranteed by RUS to request an extension of the final maturity of the outstanding principal balance of
their RUS-guaranteed Bank loans. In 2008, as authorized under the Final Maturity Extension Authority, the Bank
extended the final maturity date for two borrowers that participated in the new program, the Oglethorpe Power
Association and North Carolina Electric Membership Corporation.

The Balanced Budget and Emergency Deficit Control Act of 1985, commonly known as
Gramm-Rudman-Hollings, Consolidated Omnibus Budget Reconciliation Act of 1985 and the Federal Credit


                                                        2
                                      FEDERAL FINANCING BANK
                                    Management’s Discussion and Analysis
                                         September 30, 2008 and 2007



Reform Act of 1990 included provisions that have acted as prohibitions and disincentives against the Bank
financing of certain loans that are 100 percent guaranteed by Federal agencies.

Section 6102 of the Food, Conservation, and Energy Act of 2008 reinstated the direct loan program for the RUS
Electric Program, eliminating the borrower’s right to have loans financed by the Bank. Beginning in FY 2010,
RUS anticipates financing new electric loans through the direct loan program instead of financing the loans
through the Bank.

Impact of Economic Conditions

Current economic conditions have had an impact on programs that borrow from the Bank. Certain programs have
borrowed more than they anticipated, which has increased the amount of loans outstanding from the Bank.
Additionally, new legislation passed by Congress has changed and will change the Bank's asset holdings.

Financial Highlights

Statements of Operations and Changes in Net Position Highlights

The following is a synopsis of the financial performance of the Bank for the fiscal year ended September 30,
2008. Interest on loans of $1,941,407 thousand for the fiscal year ended September 30, 2008 decreased compared
to the interest on loans of $1,977,872 thousand for the fiscal year ended September 30, 2007 due to lower market
interest rates. The legislatively-mandated interest credits reduced interest income by $97,998 thousand and
$97,830 thousand for the fiscal years ended September 30, 2008 and 2007, respectively, and are related to RUS
“cushion of credit” loans. Revenue from servicing loans of $3,328 thousand for the fiscal year ended
September 30, 2008, was relatively unchanged from $3,299 thousand for the fiscal year ended September 30,
2007.

Interest on borrowings of $1,237,371 thousand for the fiscal year ended September 30, 2008 decreased from the
interest on borrowings of $1,277,987 thousand for the fiscal year ended September 30, 2007 due to lower market
interest rates. After the administrative expenses of $5,713 thousand, net income of $603,696 thousand for the
fiscal year ended September 30, 2008 increased from the net income of $600,636 thousand for the fiscal year
ended September 30, 2007.

Statements of Financial Position Highlights

Funds with U.S. Treasury (cash equivalents) amounted to $744,393 thousand at September 30, 2008, which
represents an increase from the September 30, 2007 balance of $228,114 thousand. The increase is due to the net
income for fiscal year 2008. In August 2008, the Bank made early repayments to the Treasury for $1,065,047
thousand, resulting in a loss of $65,047 thousand. In September 2007, the Bank made early repayments to the
Treasury for $1,928,326 thousand, resulting in a net gain of $10,572 thousand. The repayments represent capital
transactions with Treasury.

The loan portfolio (loans receivable) increased $4,484,746 thousand from $33,992,122 thousand at
September 30, 2007 to $38,476,868 thousand at September 30, 2008. The change is primarily the result of a
$3,000,000 thousand increase in short-term loans to the U. S. Postal Service, and new short-term loans of
$1,100,000 thousand to the National Credit Union Administration. The Bank’s net position increased to


                                                       3
                                       FEDERAL FINANCING BANK
                                     Management’s Discussion and Analysis
                                          September 30, 2008 and 2007



$2,903,686 thousand at September 30, 2008 from $2,365,037 thousand at September 30, 2007, primarily as a
result of positive earnings.

All of the loans in the Bank’s portfolio are federally guaranteed, except for those of the U.S. Postal Service. The
Bank does not maintain a reserve for loan losses as no future credit-related losses are expected.

Performance Highlights

During fiscal year 2008, the Bank processed 522 new loan requests. The interest rate was set or reset on 1,253
loans in fiscal year 2008 for new loans and maturity extensions. The Bank processed 224 prepayments and
30,456 loan payments in fiscal year 2008.

Management Controls

The Bank completed an in-depth testing of its internal accounting and administrative control procedures in
accordance with OMB Circular No. A-123, Management’s Responsibility for Internal Control, in July 2008.
Additionally, in fiscal year 2006, a private contractor performed a certification and accreditation of the Bank’s
enterprise management system, known as the Loan Management Control System, which is effective for three
years.

Accordingly, we believe that the Bank’s systems of internal accounting and administrative controls fully comply
with the requirements for agency internal accounting and administrative control systems, providing reasonable
assurance that they are achieving the intended objectives.




                                                        4
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                        Independent Auditors’ Report on Financial Statements


Inspector General, U.S. Department of the Treasury and the Board of Directors, Federal Financing Bank:

We have audited the accompanying statements of financial position of the Federal Financing Bank (the
Bank) as of September 30, 2008 and 2007, and the related statements of operations and changes in net
position and cash flows for the years then ended (hereinafter referred to as financial statements). These
financial statements are the responsibility of the Bank’s management. Our responsibility is to express an
opinion on these financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin
No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about whether the
financial statements are free of material misstatement. An audit includes consideration of internal control
over financial reporting as a basis for designing audit procedures that are appropriate in the circumstances,
but not for the purpose of expressing an opinion on the effectiveness of the Bank’s internal control over
financial reporting. Accordingly, we express no such opinion. An audit also includes examining, on a test
basis, evidence supporting the amounts and disclosures in the financial statements, assessing the
accounting principles used and significant estimates made by management, as well as evaluating the
overall financial statement presentation. We believe that our audits provide a reasonable basis for our
opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the Federal Financing Bank as of September 30, 2008 and 2007, and the results of its
operations, and cash flows for the years then ended, in conformity with U.S. generally accepted accounting
principles.

The information in the Management’s Discussion and Analysis section is presented for the purpose of
additional analysis and is not required as part of the financial statements. We have applied certain limited
procedures, which consisted principally of inquiries of management regarding the methods of measurement
and presentation of this information. However, we did not audit this information and, accordingly, we
express no opinion on it.

Our audits were conducted for the purpose of forming an opinion on the financial statements taken as a
whole. The other supplementary information included in Schedule 1 is presented for purposes of additional
analysis and is not required as part of the financial statements. This information has not been subjected to
auditing procedures and, accordingly, we express no opinion on it.




                                                                   5
                                      KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                      a member of KPMG International, a Swiss cooperative.
In accordance with Government Auditing Standards, we have also issued our reports dated November 10,
2008, on our consideration of the Bank’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts, and other matters. The purpose of those
reports is to describe the scope of our testing of internal control over financial reporting and compliance
and the results of that testing, and not to provide an opinion on the internal control over financial reporting
or on compliance. Those reports are an integral part of an audit performed in accordance with Government
Auditing Standards and should be read in conjunction with this report in assessing the results of our audits.




November 10, 2008




                                                      6
                                            FEDERAL FINANCING BANK
                                              Statements of Financial Position
                                               September 30, 2008 and 2007
                                                   (Dollars in thousands)

                                     Assets                                            2008         2007
Funds with U.S. Treasury                                                         $      744,393      228,114
Investments held-to-maturity (fair value of $29,585 and $0, notes 2 and 5)               29,535           —
Loans receivable (notes 3, 5, and 8)                                                 38,476,868   33,992,122
Accrued interest receivable                                                             182,884      451,930
Advances to others                                                                           92          658
              Total assets                                                       $   39,433,772   34,672,824
                         Liabilities and Net Position
Liabilities:
   Borrowings:
      Principal amount                                                           $   36,036,419   31,620,998
      Plus unamortized premium                                                          287,953      348,111
     Total borrowings (notes 4, 5, and 8)                                            36,324,372   31,969,109
  Accrued interest payable                                                             205,534      338,529
  Other liabilities                                                                        180          149
              Total liabilities                                                      36,530,086   32,307,787
Loan commitments (note 9)
Net position (note 6)                                                                 2,903,686    2,365,037
              Total liabilities and net position                                 $   39,433,772   34,672,824


See accompanying notes to financial statements.




                                                              7
                                       FEDERAL FINANCING BANK
                              Statements of Operations and Changes in Net Position
                                   Years ended September 30, 2008 and 2007
                                             (Dollars in thousands)

                                                                               2008           2007
Revenue and financing sources:
  Interest on loans                                                    $      1,941,407      1,977,872
  Less legislatively-mandated interest credit                                   (97,998)       (97,830)
              Net interest on loans                                           1,843,409      1,880,042
  Interest on investments                                                               43         —
  Revenue from servicing loans                                                       3,328       3,299
              Total revenue                                                   1,846,780      1,883,341
Expenses:
  Interest on borrowings                                                      1,237,371      1,277,987
  Administrative expenses                                                         5,713          4,718
              Total expenses                                                  1,243,084      1,282,705
              Net income                                               $        603,696       600,636
Net position:
  Beginning of year                                                    $      2,365,037      1,753,829
  Net income                                                                    603,696        600,636
  (Loss) gain on extinguishment of borrowings treated as
     capital transactions (note 7)                                              (65,047)       10,572
  End of year (note 6)                                                 $      2,903,686      2,365,037


See accompanying notes to financial statements.




                                                        8
                                          FEDERAL FINANCING BANK
                                                Statements of Cash Flows
                                        Years ended September 30, 2008 and 2007
                                                  (Dollars in thousands)

                                                                                    2008           2007
Cash flows from operations:
  Net income                                                                 $       603,696        600,636
  Adjustments to reconcile net income to net cash provided
     by operations:
        Amortization of premium on loans                                             (60,158)        (57,591)
        Capitalization of interest receivable                                           (111)         (1,150)
        Capitalization of interest payable                                            83,022          94,322
        Decrease (increase) in accrued interest receivable                           269,046          (6,231)
        Decrease (increase) in advances to others                                        566            (375)
        (Decrease) increase in accrued interest payable                             (132,995)         16,199
        Increase in other liabilities                                                     31              20
              Net cash provided by operations                                        763,097        645,830
Cash flows from investing activities:
  Investment purchases                                                               (29,535)           —
  Loan disbursements                                                              (95,961,408)   (15,397,941)
  Loan collections                                                                 91,476,773     13,250,542
              Net cash used in investing activities                                (4,514,170)    (2,147,399)
Cash flows from financing activities:
  Borrowings                                                                       95,990,943     15,397,941
  Repayments of borrowings                                                        (91,723,591)   (14,569,738)
              Net cash provided by financing activities                            4,267,352        828,203
              Net increase (decrease) in cash                                        516,279       (673,366)
Funds with U.S. Treasury – beginning of the period                                   228,114        901,480
Funds with U.S. Treasury – end of the period                                 $       744,393        228,114
Supplemental disclosures of cash flow information:
  Interest paid (net of amount capitalized)                                  $     1,344,743      1,239,045
Supplemental schedule of noncash investing and financing activities:
  (Loss) gain on early extinguishment of borrowings
     treated as capital transactions (note 7)                               $         (65,047)       10,572


See accompanying notes to financial statements.




                                                           9
                                       FEDERAL FINANCING BANK
                                         Notes to Financial Statements
                                         September 30, 2008 and 2007
                                             (Dollars in thousands)



(1)   Summary of Significant Accounting Policies
      The Federal Financing Bank (the Bank) was created by the Federal Financing Bank Act of 1973
      (12 USC 2281, the Act) as an instrumentality of the U. S. Government and a body corporate under the
      general supervision of the Secretary of the Treasury (the Secretary). The budget and audit provisions of the
      Government Corporation Control Act are applicable to the Bank in the same manner as they are applied to
      other wholly owned government corporations.

      The Bank was established by Congress at the request of the U.S. Department of the Treasury (Treasury), in
      order “to assure coordination of Federal and federally assisted borrowing programs with the overall
      economic and fiscal policies of the U. S. Government, to reduce the cost of Federal and federally assisted
      borrowing from the public, and to assure that such borrowings are financed in a manner least disruptive of
      private financial markets and institutions.” The Bank was given broad statutory authority to finance
      obligations issued, sold, or guaranteed by Federal agencies so that the Bank could meet these debt
      management objectives.

      The Bank is authorized to issue obligations to the public in amounts not to exceed $15,000,000 with the
      approval of the Secretary. Additionally, the Bank is authorized to issue obligations in unlimited amounts to
      the Secretary and, at the discretion of the Secretary, may agree to purchase any such obligations.

      (a)   Basis of Presentation
            The Bank has historically prepared its financial statements in accordance with accounting principles
            generally accepted in the United States of America (GAAP), based on standards issued by the
            Financial Accounting Standards Board (FASB), the private-sector standards-setting body. In
            October 1999, the American Institute of Certified Public Accountants (AICPA) designated the
            Federal Accounting Standards Advisory Board (FASAB) as the standards-setting body for the
            establishment of accounting principles generally accepted in the United States of America with
            respect to the financial statements of Federal government entities. The FASAB has indicated that
            financial statements prepared based upon standards promulgated by the FASB may also be regarded
            as in accordance with GAAP for those Federal entities, such as the Bank, that have issued financial
            statements based upon FASB standards in the past. Accordingly, consistent with historical reporting,
            the Bank’s financial statements are presented in accordance with accounting and financial reporting
            standards promulgated by the FASB.

      (b)   Basis of Accounting
            The financial statements are presented on the accrual basis of accounting. The Bank recognizes loans
            when they are issued and related repayments when they are received. The Bank recognizes
            borrowings when they are received and repayments when they are made. In addition, the Bank
            recognizes interest on loans, interest on investments, and revenue from servicing loans when they are
            earned and recognizes interest on borrowings and expenses when they are incurred.




                                                       10                                            (Continued)
                                 FEDERAL FINANCING BANK
                                    Notes to Financial Statements
                                    September 30, 2008 and 2007
                                       (Dollars in thousands)



(c)   Funds with U.S. Treasury
      As a government corporation, the Bank maintains a Fund Balance with Treasury (fund
      account 20X4521) and does not hold cash. For the purposes of the statements of cash flows, the
      funds with Treasury are considered cash.

(d)   Investments
      The Bank’s investments at September 30, 2008 consist of investments in U. S. Treasury securities
      for the Home Ownership Preservation Entity (HOPE) Fund. The securities are categorized as held-
      to-maturity, because the Bank has the ability and intent to hold the securities until maturity. The
      securities are recorded at par value.

(e)   Loans Receivable
      The Bank issues loans to Federal agencies for their own use or to issue loans to private sector
      borrowers, whose loans are guaranteed by the Federal agencies. When a Federal agency has to honor
      its guarantee because a private sector borrower defaults, the Federal agency must obtain an
      appropriation or use other resources to pay the Bank. Loan principal and interest are backed by the
      full faith and credit of the U.S. Government, except for loans to the U.S. Postal Service. The Bank
      has not incurred and does not expect to incur any credit-related losses on its loans.

(f)   Interest on Loans
      The Bank’s general policy is to capture the liquidity premium between Treasury securities and the
      private sector lending rates, and to charge a rate that reflects the risk inherent in a borrower or
      transaction, when such a rate will accomplish a broader goal. The income resulting from the interest
      spread covers the administrative expenses of the Bank and any surplus is transferred to the
      Treasury’s General Fund. Under amendments to the Federal Credit Reform Act, effective October 1,
      1998, while the Bank is permitted to charge a spread on new lending arrangements with government-
      guaranteed borrowers, the margin is not retained by the Bank, but rather is retained by the loan
      guarantor. In the event that this results in the Bank being unable to fund its administrative expenses
      related to these loans, the Federal Credit Reform Act, as amended, states that the Bank may require
      reimbursement from loan guarantors.

(g)   Capitalized Interest
      In accordance with their loan agreements with the Bank, the General Services Administration (GSA),
      Historically Black Colleges and Universities (HBCU) and Veteran Administration Transitional
      Housing (VATH) have the option of deferring payments of interest on their loans until future
      periods. When GSA, HBCU or VATH elect, in advance, to defer interest payments, the accrued
      interest is recorded as capitalized interest receivable and added to the respective loan balance by the
      Bank. The Bank correspondingly capitalizes the interest payable on its related borrowings.




                                                 11                                             (Continued)
                                 FEDERAL FINANCING BANK
                                   Notes to Financial Statements
                                   September 30, 2008 and 2007
                                       (Dollars in thousands)



(h)   Premium on Borrowings
      The Bank amortizes the premium on borrowings using the effective interest method. The
      amortization is recorded as part of interest on borrowings on the statements of operations and
      changes in net position.

(i)   Legislatively-mandated Interest Credit
      In prior years, the Bank purchased certificates of beneficial ownership (i.e., loans reported as loans
      receivable on the statement of financial position) from RUS, a component of the U.S. Department of
      Agriculture. RUS used the funds received from the Bank to issue loans to nonfederal entities,
      specifically private utility companies. In 1987, Congress passed legislation (i.e., 7 USC Sec. 940c -
      Cushion of Credit Payments Program) that required RUS to develop and promote a program to
      encourage private utility companies to voluntarily make deposits into cushion of credit accounts
      established within RUS. The legislation also indicated that private utility companies may reduce the
      balance of their cushion of credit account only if the reduction is used to make scheduled payments
      on loans received from RUS. In accordance with the legislation, the private utility companies accrue
      interest at the higher of 5% per annum or the weighted average rate of the certificates of beneficial
      ownership on cash deposited into the cushion of credit accounts with RUS. The legislation also
      indicated that RUS shall receive an interest credit from the Bank equal to the amount of interest RUS
      pays to the private utility companies. The Bank records the interest credit in the period the cost is
      incurred as a legislatively-mandated interest credit (contra-revenue to interest on loans) in the
      statements of operations and changes in net position.

(j)   Revenue from Servicing Loans
      The Bank charges certain U.S. Department of Agriculture’s Rural Utilities Services (RUS)
      borrowers a loan service fee that is reported as revenue from servicing loans on the statements of
      operations and changes in net position. The Bank’s loan servicing fee is equal to one-eighth of one
      percent more than the contractual interest rate with Treasury.

(k)   Administrative Expenses
      The Bank is subject to the general supervision and direction of the Secretary. As provided by law,
      the Secretary acts as chairman of the board of directors. Employees of Treasury’s Departmental
      Offices perform the Bank’s management and accounting functions; its legal counsel is the General
      Counsel of the Treasury. The Bank reimburses Treasury for the facilities and services it provides.
      The amounts of such reimbursements are reported as administrative expenses in the statements of
      operations and changes in net position.

(l)   Net Position
      The Bank can borrow from Treasury to meet its immediate cash needs and can also seek
      appropriations from Congress to make up for accumulated losses that will not be met by income.




                                                 12                                            (Continued)
                                 FEDERAL FINANCING BANK
                                    Notes to Financial Statements
                                    September 30, 2008 and 2007
                                        (Dollars in thousands)



(m)   Loan Commitments
      The Bank recognizes loan commitments when the Bank and the other parties fully execute the
      promissory notes and reduces loan commitments when the Bank issues loans or when the
      commitments expire. Most obligations of the Bank give a borrower the contractual right to a loan or
      loans immediately or at some point in the future. The Bank limits the time available for a loan under
      an obligation, where applicable.

(n)   Management’s Use of Estimates
      The preparation of financial statements in conformity with GAAP requires management to make
      estimates and assumptions that affect the reported amounts of assets and liabilities and disclosure of
      contingent assets and liabilities at the date of the financial statements and the reported amounts of
      income and expenses during the reporting period. Actual results could differ from those estimates.

(o)   Tax-Exempt Status
      The Bank is exempt from tax in accordance with Section 11(a) of the Federal Financing Bank Act of
      1973 (12 USC 2281).

(p)   Related Parties
      The Bank conducts most of its financial transactions with other Federal entities and therefore the
      financial statement balances that represent transactions with other Federal entities include all assets;
      liabilities, except borrowings from the public of $10 as of September 30, 2008 and 2007; revenues;
      and expenses.

(q)   Future Accounting Standards
      In September 2006, the FASB issued SFAS No. 157, Fair Value Measurements. SFAS No. 157
      defines fair value, establishes a framework for measuring fair value in generally accepted accounting
      principles (GAAP), and expands disclosures about fair value measurements. SFAS No. 157, Fair
      Value Measurements, is effective for financial statements issued for fiscal years beginning after
      November 15, 2007. The Bank will adopt the fair value measurements in FY 2009. The Bank is in
      the process of evaluating the impact that will result from adopting SFAS No. 157.

      In February 2007, the FASB issued SFAS No. 159, The Fair Value Option for Financial Assets and
      Financial Liabilities. SFAS No. 159 permits entities to choose to measure many financial
      instruments and certain other items at fair value that are not currently required to be measured at fair
      value and also establishes presentation and disclosure requirements designed to facilitate
      comparisons between entities that choose different measurement attributes for similar types of assets
      and liabilities. SFAS No. 159 is effective for financial statements issued for fiscal years beginning
      after November 15, 2007. The Bank will elect to not measure at fair value the Bank’s financial assets
      and liabilities under the optional provisions of SFAS No. 159 that will be effective in FY 2009.




                                                  13                                             (Continued)
                                       FEDERAL FINANCING BANK
                                          Notes to Financial Statements
                                          September 30, 2008 and 2007
                                              (Dollars in thousands)



(2)   Investments Held-to-Maturity (the HOPE bond transaction)
      The Secretary is authorized to issue up to $300,000,000 HOPE bonds under the HOPE for Homeowners
      Act of 2008 and the Secretary has decided to issue the HOPE bonds to the Bank for purchase. The Bank
      purchased one bond at par value of $29,535 on August 27, 2008, with a floating interest rate to be reset
      quarterly. The interest rate is 1.600% as of September 30, 2008. The HOPE bond has a 30-year maturity
      date of August 27, 2038, and interest is due on a quarterly basis. The HOPE bond is reported as
      investments held-to-maturity and the related interest receivable is reported as accrued interest receivable in
      the Bank’s statements of financial position.

      The carrying amount, accrued interest, unrealized holding gains, and fair value of the HOPE bond at
      September 30, 2008 were as follows:

                                                          Carrying        Accrued      Unrealized
      Investments held-to-maturity                        Amount          Interest    Holding Gains       Fair Value
      U.S. Treasury Nonmarketable Securities –
        HOPE Bond                                    $        29,535        43               7              29,585
                     Total                           $        29,535        43               7              29,585

      The Bank borrowed funds from Treasury at the same terms to purchase the HOPE bond.

(3)   Loans Receivable
      Loans receivable represent the outstanding balances for loans to agencies. The Bank has the ability and
      intends to hold loans receivable until maturity or payoff. At September 30, 2008, the Bank had outstanding
      loans receivable of $38,476,868, with interest rates ranging from 0.155% to 16.183%, and maturity dates
      from October 1, 2008 to July 17, 2045. At September 30, 2007, the Bank had outstanding loans receivable
      of $33,992,122, with interest rates ranging from 2.501% to 16.183%, and maturity dates from October 1,
      2007 to July 17, 2045.




                                                         14                                            (Continued)
                                      FEDERAL FINANCING BANK
                                        Notes to Financial Statements
                                        September 30, 2008 and 2007
                                             (Dollars in thousands)



      Loans receivable at September 30, 2008 and 2007, consist of the following:

                                    Agency                                  2008                2007
      Rural Utilities Service, Department of Agriculture              $   22,693,499         21,687,204
      Rural Utilities Service, Department of Agriculture
        certificates of beneficial ownership (CBO)                        3,632,550          3,916,573
      General Services Administration                                     2,097,771          2,151,379
      U.S. Postal Service                                                 7,200,000          4,200,000
      National Credit Union Administration                                1,109,161              —
      Foreign Military Sales, Department of Defense                        680,365            836,466
      Low Rent Public Housing, Department of
        Housing and Urban Development                                      691,412            790,624
      Historically Black Colleges and Universities, Department
        of Education                                                       338,466            315,215
      Ship Leasing, Department of Defense, Navy                            16,623             69,619
      Small Business Administration                                         10,046             16,989
      Veteran Administration Transitional Housing Program                   4,940              4,990
      Federal Railroad Administration, Department of
        Transportation                                                      2,035               2,269
      Virgin Islands, Department of the Interior                             —                   794
                    Total loans receivable                            $   38,476,868         33,992,122

      The loans receivable due within one year are $9,611,426 and $5,556,462 as of September 30, 2008 and
      2007, respectively.

(4)   Borrowings
      Under the FFB Act, the Bank may, with the approval of the Secretary, borrow without limit from the
      Treasury. Repayments on Treasury borrowings match the terms and conditions of corresponding loans
      made by the Bank and bear interest at the respective rate as determined by the Secretary. The Bank’s
      borrowings are repayable on demand. At September 30, 2008, the Bank had Treasury borrowings of
      $22,036,409, with interest rates ranging from .03% to 13.759%, and maturity dates from October 1, 2008
      to July 17, 2045. At September 30, 2007, the Bank had Treasury borrowings of $17,620,988, with interest
      rates ranging from 1.822% to 13.759%, and maturity dates from October 1, 2007 to July 17, 2045.

      Additionally, at September 30, 2008 and 2007, the Bank had borrowings of $14,000,000 and an associated
      unamortized premium of $287,953 and $348,111, respectively, from the Civil Service Retirement and
      Disability Fund (CSR&DF), which is administered by the Office of Personnel Management (OPM). These
      borrowings are at stated interest rates ranging from 4.625% to 5.625%, effective interest rate of 4.125%,
      and with maturity dates ranging from June 30, 2009 to June 30, 2019. Borrowings from the public
      amounted to $10 at September 30, 2008 and 2007.



                                                      15                                           (Continued)
                                       FEDERAL FINANCING BANK
                                          Notes to Financial Statements
                                          September 30, 2008 and 2007
                                              (Dollars in thousands)



      The scheduled principal repayments below reflect maturities of the Bank’s borrowings and do not
      necessarily match the maturities of assets in the Bank’s loan portfolio. Scheduled principal repayments of
      borrowings as of September 30, 2008, are as follows:

                                                Repayment Date                   Amount
                          2009                                            $     11,053,619
                          2010                                                   1,727,743
                          2011                                                   1,880,988
                          2012                                                   2,235,398
                          2013                                                   1,541,550
                          2014 and thereafter                                   17,597,121
                                         Total principal payments               36,036,419
                                         Plus unamortized premium                 287,953
                                         Total borrowings                 $     36,324,372

(5)   Fair Value of Financial Instruments and Interest Rate Volatility
      The fair value of the Bank's loans receivable, investments, and borrowings changes in response to the
      interest rate volatility that results from the current economic conditions, market perception and
      expectations. However, because the interest rates and maturities of loans receivables, investments, and
      borrowings are very similar, the fair market values of both assets and liabilities increase or decrease in the
      same direction and in similar amounts.

      (a)   Funds with U.S. Treasury
            The carrying amount approximates fair value because of the liquid nature of the funds with Treasury.

      (b)   Loans Receivable, Investments, and Borrowings
            The fair value of loans receivable, investments, and borrowings is calculated using discounted cash
            flow analyses based on contractual repayment terms. The discount rates used in the loans receivable
            and investment analysis are based on interest rates currently being offered by the Bank on loans of
            similar maturity and other characteristics. The discount rates used in the borrowings analysis are
            based on interest rates of current borrowings from Treasury using similar maturity and other
            characteristics. The fair value of loans receivable at September 30, 2008 and 2007 was $42,265,527
            and $36,956,776, respectively. The fair value of investments held-to-maturity at September 30, 2008
            and 2007 was $29,585 and $0, respectively. The fair value of borrowings at September 30, 2008 and
            2007 was $37,817,803 and $32,201,562, respectively.

      (c)   Advances to Others, Accrued Interest Receivable, Accrued Interest Payable, and Other Liabilities
            The carrying amount of advances to others, accrued interest receivable, accrued interest payable, and
            other liabilities approximate fair value as they represent the amounts expected to be realized or paid
            and are current assets and liabilities.

                                                        16                                             (Continued)
                                       FEDERAL FINANCING BANK
                                         Notes to Financial Statements
                                         September 30, 2008 and 2007
                                             (Dollars in thousands)



(6)   Net Position
      At September 30, 2008 and 2007, the net position includes the following:

                                                                                 2008               2007
      Transfers to Treasury                                            $    (1,682,847)          (1,682,847)
      Cumulative results of operations and gains/losses on
        early extinguishment of borrowings treated as capital
           transactions                                                      4,586,533           4,047,884
                     Net position                                      $     2,903,686           2,365,037

      Included in the net position activity is income the Bank earned prior to fiscal year 2000 that the Bank
      transferred to Treasury.

(7)   Loss/Gain on Extinguishment of Borrowings Treated as Capital Transactions
      In September 2008 and 2007, the Bank made early repayments to Treasury totaling $1,069,358 and
      $1,928,326, resulting in a net loss of $65,047 and in a net gain of $10,572, respectively. These represent
      capital transactions with Treasury and are respectively reported as a (loss) gain on extinguishment of
      borrowings treated as capital transactions on the statements of operations and changes in net position.

(8)   Capitalized Interest
      Capitalized interest receivable was approximately $21,709 and $33,047, and the related capitalized interest
      payable was $78,572 and $11,285 as of September 30, 2008 and 2007, respectively. Capitalized interest
      receivable and payable are reported as part of the loans receivable and borrowing balances, respectively, on
      the statements of financial position.

(9)   Loan Commitments
      The Bank makes loan commitments to extend credit to Federal program agencies based on the loan
      agreements executed between the parties. The loan commitments are not reported on the statements of
      financial position and generally have fixed expiration dates or other termination clauses. Since many of the
      loan commitments are expected to expire without being completely drawn upon, the total loan commitment
      amounts do not necessarily represent future cash requirements. The Bank uses the same credit policies in
      making loan commitments as it does for loans receivable reported on the statements of financial position.
      The Bank funds the loan commitments with its borrowing authority from the Secretary. There is no
      exposure or credit risk related to these commitments.




                                                       17                                            (Continued)
                                 FEDERAL FINANCING BANK
                                   Notes to Financial Statements
                                   September 30, 2008 and 2007
                                      (Dollars in thousands)



The contract amounts and remaining loan commitments by program agency as of September 30, 2008, are
as follows:

                                                               Contract      Remaining loan
                        Agency                                 amounts        commitments
U.S. Postal Service                                     $      15,000,000       7,800,000
Rural Utilities Service, Department of Agriculture             11,463,270       3,411,690
National Credit Union Administration                            5,000,000       3,890,893
Historically Black Colleges and Universities,
  Department of Education                                          464,560       274,793
General Services Administration                                    193,200       21,312
              Total commitments                         $      32,121,030       15,398,688




                                                18                                     (Continued)
                                    FEDERAL FINANCING BANK
                              Other Supplementary Information – Schedule 1
                      Unaudited – See Accompanying Independent Auditors’ Report
                                       September 30, 2008 and 2007
                                           (Dollars in thousands)



In prior years, the Federal Financing Bank (Bank) purchased certificates of beneficial ownership (i.e., loans
reported as loans receivable on the statement of financial position) from the Rural Utilities Service (RUS),
a component of the U.S. Department of Agriculture. RUS used the funds received from the Bank to issue
loans to nonfederal entities, specifically private utility companies. In 1987, Congress passed legislation
(i.e., 7 USC Sec. 940c - Cushion of Credit Payments Program) that required RUS to develop and promote a
program to encourage private utility companies to voluntarily make deposits into cushion of credit
accounts established within RUS. The legislation also indicated that a private utility company may reduce
the balance of its cushion of credit account only if the reduction is used to make scheduled payments on
loans received from RUS. In accordance with the legislation, the private utility companies accrue interest at
a rate of 5% per annum or the weighted average rate of the certificates of beneficial ownership on cash
deposited into the cushion of credit accounts with RUS. The legislation also indicated that RUS shall
receive an interest credit from the Bank equal to the amount of interest RUS pays to the private utility
companies. The Bank records the interest credit in the period the cost is incurred as a legislatively-
mandated interest credit (contra-revenue to interest on loans) in the statements of operations and changes in
net position. As of September 30, 2008, the outstanding principal balance of the 15 RUS loans subject to
the certificates of beneficial ownership (CBO) legislation totaled $3,632,550 with interest rates ranging
from 7.755% to 15.325%, and maturity dates ranging from 2009 to 2021. In October 1998, the Bank
received an appropriation that off-set the RUS-CBO interest credits by $917,699.

The interest credits that the Bank has provided RUS-CBO through September 30, 2008 are as follows:

                   Fiscal Year                                        Interest Credits

                   1988–2003                                    $        1,292,326
                   2004                                                    150,134
                   2005                                                    244,420
                   2006                                                    234,266
                   2007                                                     97,830
                   2008                                                     97,988

                            Total interest credits                       2,116,974

                                 Less appropriaton                        (917,699)

                            Total                               $        1,199,275




                                                     19
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




            Independent Auditors’ Report on Internal Control Over Financial Reporting


Inspector General, U.S. Department of the Treasury and the Board of Directors, Federal Financing Bank:

We have audited the statements of financial position of the Federal Financing Bank (the Bank) as of
September 30, 2008 and 2007 and the related statements of operations and changes in net position and cash
flows (hereinafter referred to as financial statements) for the years then ended, and have issued our report
thereon dated November 10, 2008.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin
No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about whether the
financial statements are free of material misstatement.

The management of the Bank is responsible for establishing and maintaining effective internal control. In
planning and performing our fiscal year 2008 audit, we considered the Bank’s internal control over
financial reporting by obtaining an understanding of the design effectiveness of the Bank’s internal
controls, determining whether internal controls had been placed in operation, assessing control risk, and
performing tests of controls as a basis for designing our auditing procedures for the purpose of expressing
our opinion on the financial statements. To achieve this purpose, we did not test all internal controls
relevant to operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of
1982. The objective of our audit was not to express an opinion on the effectiveness of the Bank’s internal
control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of the
Bank’s internal control over financial reporting.

Our consideration of internal control over financial reporting was for the limited purpose described in the
preceding paragraph and would not necessarily identify all deficiencies in the internal control over
financial reporting that might be significant deficiencies or material weaknesses.

A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect misstatements
on a timely basis. A significant deficiency is a control deficiency, or combination of control deficiencies,
that adversely affects the Bank’s ability to initiate, authorize, record, process, or report financial data
reliably in accordance with U.S. generally accepted accounting principles such that there is more than a
remote likelihood that a misstatement of the Bank’s financial statements that is more than inconsequential
will not be prevented or detected by the Bank’s internal control. A material weakness is a significant
deficiency, or combination of significant deficiencies, that results in more than a remote likelihood that a
material misstatement of the financial statements will not be prevented or detected by the Bank’s internal
control.




                                                                    20
                                   KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                   a member of KPMG International, a Swiss cooperative.
In our fiscal year 2008 audit, we did not identify any deficiencies in internal control over financial
reporting that we consider to be material weaknesses, as defined above.

We noted certain matters that we have reported to the management of the Bank in a separate letter dated
November 10, 2008.

This report is intended solely for the information and use of the Bank’s management, the U.S. Department
of the Treasury’s Office of Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.




November 10, 2008




                                                  21
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                  Independent Auditors’ Report on Compliance and Other Matters


Inspector General, U.S. Department of the Treasury and the Board of Directors, Federal Financing Bank:

We have audited the statements of financial position of the Federal Financing Bank (the Bank) as of
September 30, 2008 and 2007, and the related statements of operations and changes in net position and
cash flows (hereinafter referred to as financial statements) for the years then ended, and have issued our
report thereon dated November 10, 2008.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin
No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether the
financial statements are free of material misstatement.

The management of the Bank is responsible for complying with laws, regulations, and contracts applicable
to the Bank. As part of obtaining reasonable assurance about whether the Bank’s financial statements are
free of material misstatement, we performed tests of the Bank’s compliance with certain provisions of
laws, regulations, and contracts, noncompliance with which could have a direct and material effect on the
determination of the financial statement amounts, and certain provisions of other laws and regulations
specified in OMB Bulletin No. 07-04. We limited our tests of compliance to the provisions described in the
preceding sentence, and we did not test compliance with all laws, regulations, and contracts applicable to
the Bank. However, providing an opinion on compliance with those provisions was not an objective of our
audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph of this report disclosed no
instances of noncompliance or other matters that are required to be reported herein under Government
Auditing Standards or OMB Bulletin No. 07-04.

This report is intended solely for the information and use of the Bank’s management, the U.S. Department
of the Treasury’s Office of Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.




November 10, 2008




                                                                       22
                                KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                a member of KPMG International, a Swiss cooperative.
